           STANDARD PROCUREMENT SYSTEM USE
                AND USER SATISFACTION


Report No. D-2001-075                   March 13, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AMS                   American Management Systems, Incorporated
DCMA                  Defense Contract Management Agency
DDP                   Director, Defense Procurement
JITC                  Joint Interoperability Test Command
MS                    Microsoft
PMO                   Program Management Office
SPS                   Standard Procurement System
                         Office of the Inspector General, DoD
 Report No. D-2001-075                                                    March 13, 2001
    (Project No. D2000FG-0091)

          Standard Procurement System Use and User Satisfaction

                                 Executive Summary

Introduction. The audit was performed in response to concerns expressed by the
Chairman, House of Representatives Committee on Budget that DoD was not effectively
spending Federal funds to acquire the Standard Procurement System (SPS) and SPS lacked
needed functionality. SPS is an automated information system that will support
procurement functions from receipt of requirements until contract closeout at all DoD
procurement organizations. SPS is intended to replace 76 procurement systems and
manual processes. As of December 30, 2000, the Program Management Office reported
that SPS was used by 16,207 users at 745 DoD sites. By the end of FY 2003, SPS is
expected to serve 43,000 users at 1,100 DoD sites. Estimated costs for SPS are
$433.5 million to procure commercial software licenses and support services. Estimated
life-cycle costs for FY 1995 through FY 2005 are $3.7 billion. Operational benefits from
SPS are estimated at $1.4 billion derived primarily from increased productivity and
reduced costs associated with paper transactions.

The Director, Defense Procurement, selected a contractor to provide a commercial off-
the-shelf product to accomplish 45 percent of a total of 299 DoD procurement functions.
The remaining 55 percent would be accomplished through modifications to the
commercial product. As of December 2000, DoD had deployed four versions of SPS,
through version 4.1.

Objectives. The audit objective was to evaluate allegations related to SPS functionality,
user satisfaction, system implementation and operation, and system controls. An additional
objective was to follow up on recommendations made in our May 1999 report. System
controls will be discussed in a future report.

Results. Audit results were based on responses to a web-based survey of statistically
selected personnel from a population of SPS 4.1 users at 534 DoD procurement sites (see
Appendix C). About 85.9 percent of SPS users stated that SPS was available always or
most of the time. The SPS Program Management Office in the Defense Contract
Management Agency had taken steps to better meet user needs, and respondents stated that
SPS had the potential of being a very effective and useful tool, but more needed to be done
to improve the software and gain greater acceptance and user confidence. Specifically, the
projected survey results indicated that:

     •   60.8 percent of SPS users preferred a procurement system other than SPS,

     •   45.8 percent of SPS users stated that the number of workarounds increased,

     •   51.4 percent of SPS users stated that productivity has not increased since SPS
         version 4.1 was implemented, and

     •   63.5 percent of SPS users stated that SPS had not substantially contributed to the
         DoD goal of paperless contracting (finding A).
Further, based on survey responses, we projected that about 26.5 percent of the personnel
licensed to use SPS version 4.1 have not used it because SPS either lacked the functionality
for those sites or employees received SPS when it was not needed to perform their jobs.
We estimate that the Program Management Office spent up to $2.1 million of the
$7.9 million in license costs on licenses for users who could not or would not use SPS
(finding B).

DoD has experienced a 50 percent reduction in the procurement workforce without a
commensurate reduction in workload. Conceptually, SPS should assist in automating and
standardizing a variety of procurement tasks and thus assist in more efficiently completing
the workload. According to the survey, however, functionality remains a serious concern.
Management needs to respond to this concern when deploying new SPS versions and, if
SPS does not fully meet mission needs, should consider supplementary and alternative tools
for the procurement workforce.

Summary of Recommendations. We recommend that the Director, Defense
Procurement, direct the SPS Program Manager to perform tests to ensure that SPS meets
user needs; to develop and evaluate SPS against quantifiable performance measures that
gauge meeting mission objectives, improving productivity, achieving the goal of paperless
contracting, and delivering intended benefits; and purchase future licenses only after sites
clearly demonstrate the need and determine the number required. We also recommend that
the Director, Defense Procurement, direct the DoD Components to coordinate training and
the transition to the SPS, demonstrate that SPS meets site needs before deployment, and
provide assurance that they have accurately determined license needs.

Management Comments. The Director, Defense Procurement, and the Director, Defense
Contract Management Agency, generally concurred with the recommendations that testing
and performance measures are necessary, but stated that both already exist. The Director,
Defense Procurement, also agreed to better coordinate training needs. Both Directors
partially concurred that, prior to any future deployments of SPS, the DoD Components
should determine that the version meets functionality requirements and identify the number
of licenses required. However, both Directors disagreed that the DoD Components’
determinations need review or validation before future purchases of SPS licenses, stating
that it is the responsibility of the DoD Components to determine license requirements. A
discussion of management comments is in the Findings section of the report and the
complete text is in the Management Comment section.
Audit Response. The management comments were responsive regarding coordinating
training needs. However, the other comments did not fully address the core issues
identified by the customer survey. There is a need for more appropriate testing prior to
future deployment. About 38 percent of respondents contend that SPS version 4.1 had only
some or none of the functionality needed, despite testing. Present performance measures
do not address mission needs such as enhancing customer service, reducing problem
disbursements, increasing contractor personnel productivity, or eliminating redundancy.
We agree that DoD Components have the responsibility for identifying SPS licensing needs
with due diligence and we modified the related recommendation to allow management
flexibility in determining how to obtain more credible assurance that stated requirements
are valid. We request that the Director, Defense Procurement, provide additional
comments in response to the final report by May 14, 2001.




                                             ii
Table of Contents

Executive Summary

Introduction
     Background                                                 1
     Objectives                                                 3

Findings
     A. Standard Procurement System User Satisfaction           5
     B. Use of the Standard Procurement System                 30

Appendixes
     A. Audit Process
          Scope                                                37
          Methodology                                          38
          Prior Coverage                                       40
     B. Statistical Projections                                41
     C. Estimating the Number of Standard Procurement System
          Version 4.1 Users                                    44
     D. Report Distribution                                    48

Management Comments
     Director, Defense Procurement                             51
     Defense Contract Management Agency                        58
Background
       The audit was performed in response to concerns expressed by the Chairman,
       House of Representatives Committee on Budget, that DoD was not effectively
       spending Federal funds to acquire the Standard Procurement System (SPS) and
       SPS lacked needed functionality. The report is one in a series and discusses
       functionality, user satisfaction, system implementation, and operation of
       the SPS.

       The SPS Program. The Director, Defense Procurement (DDP), initiated the
       SPS program in November 1994 to provide an automated system that would
       perform DoD procurement functions. The DDP is responsible for acquiring and
       deploying SPS, as well as for software installation, training, and all steps
       necessary to gain user acceptance of SPS. Procurement functions begin with
       receipt of a requirement and end with contract closeout. Standard procurement
       functions include, but are not limited to, acquiring supplies and services by
       describing requirements; determining the appropriate acquisition method;
       soliciting and selecting sources; and awarding, reporting, modifying,
       terminating, and closing out contracts.

       According to the Mission Need Statement, dated April 9, 1998, SPS should
       replace 76 legacy systems. In addition, SPS should provide standard policies,
       processes, procedures, shareable data, and electronic commerce 1 capability.
       SPS deployment should also provide more timely response to customer
       requirements, permit more cost-effective procurements, improve visibility of
       contract deliverables, reduce procurement lead times, reduce problem
       disbursements, and provide more accurate procurement information through
       shared data. Although the elimination of paper handling tasks was an expected
       benefit of SPS, the paperless contracting was not specifically addressed in the
       Mission Need Statement until April 8, 1998, when it was added in response to
       the DoD paperless contracting initiative.

       As of December 30, 2000, the Program Management Office (PMO) reported
       that SPS was used by 16,207 users at 745 sites. SPS was expected to serve
       43,000 users at 1,100 DoD procurement sites by the end of FY 2003. Program
       funding for SPS was estimated at $433.5 million to procure commercial licenses
       and support services for the software application. For FYs 1995 through 2005,
       estimated life-cycle and program costs were estimated at $3.7 billion with
       approximately $1.4 billion in operational benefits to be derived primarily from
       increased productivity and reduced costs associated with paper transactions.

       Responsibility for the SPS Program. The DDP, in the Office of the Under
       Secretary of Defense (Acquisition, Technology, and Logistics), had primary
       responsibility for the SPS program. On April 7, 1997, the DDP announced the
       selection of American Management Systems (AMS), Incorporated, Fairfax,
       Virginia, to furnish the procurement software and related services for SPS. The
       DDP delegated responsibility for managing and deploying SPS to the PMO

   1
       Electronic commerce is the interchange and processing of information using electronic
       techniques for accomplishing transactions.


                                                  1
    within the Defense Contract Management Agency. The PMO also monitors
    contractor performance. Offices in each DoD Component responsible for SPS
    implementation acted as liaisons between SPS user organizations in the DoD
    Components and the PMO and established Component-level guidance on
    configuration control, data migration, interface development, training, site
    migration, and transition from legacy systems to SPS.

    Contract Details. DoD acquired SPS, a commercial off-the-shelf software
    application, under an indefinite-delivery contract with AMS. The contract
    required AMS to provide DoD with Procurement Desktop – Defense, a
    modified version of the AMS Procurement Desktop commercial computer
    software2 that was also available to Federal agencies from the General Services
    Administration Supply Schedule. The contract required AMS to obtain and
    deploy the commercially available software, as well as provide related software
    support and support services, with options for continued maintenance, training,
    and support for up to 10 years. Because the initial commercial software would
    accomplish only 45 percent of DoD procurement functions, the contract
    required development of software enhancements and modifications to meet the
    remaining DoD functional requirements. Inspector General, DoD, Report
    No. 99-166, “Initial Implementation of the Standard Procurement System,”
    May 26, 1999, stated that the acquisition of SPS as a commercial product
    was questionable because of the need to make major modifications to the
    commercial software.

    Incremental Deployment. According to the SPS acquisition strategy, SPS
    would be delivered in increments of increasing functionality. SPS has been
    deployed sequentially with the Navy receiving SPS first, followed by the Army,
    Air Force, the Marine Corps, Defense Logistics Service Center, then other
    Defense agencies and the Defense Contract Management Agency (DCMA). To
    date, versions 3.1, 3.5, 4.0, and 4.1 have been deployed. The functionality of
    version 4.1 was designed for procurement functions at DoD posts, camps, and
    stations. Version 4.1 had five maintenance releases from 4.1a through 4.1e.
    Deployment of version 4.2 is scheduled in the second quarter of FY 2001.
    Version 4.2 will be designed for improved post, camp, and station functionality
    and for contract administration procurement functions. Deployment of
    version 5.0 is scheduled in the second quarter of FY 2002. The functionality of
    version 5.0 will be designed for major weapons system procurement functions.
    Deployment of version 5.1 is scheduled in the second quarter of FY 2003. The
    functionality of version 5.1 will be designed for procurement functions at
    inventory control points.

    Workforce Reduction Impacts. The Inspector General, DoD, issued Report
    No. D-2000-088, “DoD Acquisition Workforce Reduction Trends and
    Impacts,” February 29, 2000, on the impact of the workforce reduction. The
    report states that although acquisition organizations improved efficiency in
    contracting through acquisition reform initiatives, concern is warranted because
    staffing reductions have clearly outpaced productivity increases and acquisition

2
    Commercial computer software is a software developed or regularly used for non-governmental
    purposes that has been sold, leased, or licensed to the public; has been offered to the public; or
    will be available for commercial sale, lease, or license.



                                                2
     workforce capacity to handle its still formidable workload. There was cause for
     serious concern in the likelihood of the DoD acquisition workforce losing about
     55,000 experienced personnel through attrition by FY 2005 and in the overall
     disconnects between workload forecasts, performance measures, productivity
     indicators, and plans for workforce sizing and training. In addition, from
     FY 1990 through FY 2000 the number of procurement actions increased from
     about 13.2 million to about 15.5 million, or about 17 percent. The acquisition
     workforce reductions caused an increased backlog in closing out completed
     contracts, resulted in insufficient staff to manage requirements, reduced scrutiny
     and timeliness in reviewing acquisition actions, and increased procurement
     action lead time.


Program Risk Previously Identified
     We previously issued two reports on the SPS implementation. Inspector
     General, DoD, Report No. 99-166 states that the SPS evolutionary approach did
     not provide some critical functional requirements to meet user needs and may
     not meet the mission need to standardize procurement policies, processes, and
     procedures. In addition, users were not receiving adequate training, guidance,
     and support from the contractor help desk. Inspector General, DoD, Report
     No. 96-219, “Allegations to the Defense Hotline Concerning the Standard
     Procurement System,” September 5, 1996, stated that the acquisition strategy
     increased the risks that the program would not meet the overall objective of a
     fully functional, DoD-wide standard procurement system and that user needs
     might not be met.


Objectives
     The audit objective was to evaluate allegations related to SPS. Specific
     objectives were to evaluate SPS functionality, user satisfaction, system
     implementation, and operation. An additional objective was to follow up on
     recommendations made in our May 1999 report. The status of agreed-upon
     actions on recommendations in the May 1999 report is partially addressed in this
     report and may also be addressed in a future report. System controls will be
     discussed in a future report. See Appendix A for a discussion of the scope
     and methodology.


Survey of SPS Users
     We developed a password protected web-based survey to gather data from
     statistically selected users regarding their SPS experience, training, and
     guidance. We statistically selected users who had SPS installed for at least
     3 months before completing the survey. See Appendix A for a full explanation
     of the statistical sampling methodology. See Appendix B for complete
     information on the statistical projections and Appendix C for complete




                                         3
information on estimating the number of users of SPS version 4.1. The
information contained in this report reflects the survey respondents’ views and
opinions about SPS.




                                    4
               A. Standard Procurement System
                  User Satisfaction
               Based upon responses to a statistical web-based survey of SPS 4.1 users
               at 534 DoD procurement sites, except for positive perceptions on SPS
               reliability, the audit generally substantiated that the user community
               remained fundamentally dissatisfied with SPS. The audit also confirmed
               congressional concerns regarding SPS functionality and cost. Survey
               respondents who stated that they used SPS version 4.1 indicated that
               more needed to be done to improve user satisfaction in the areas of SPS
               functionality, implementation, and operation. Specifically, user
               satisfaction needed to be improved because the PMO prematurely
               deployed SPS and had not developed performance measures to track
               whether SPS met the mission objectives and delivered intended benefits.
               In addition, DoD Components3 did not effectively coordinate training
               and transition to SPS. As a result, the projected survey results indicated
               that about:

                       •   60.8 percent of SPS users preferred a procurement system
                           other than SPS,

                       •   45.8 percent of SPS users stated that workarounds increased,

                       •   51.4 percent of SPS users stated that productivity does not
                           exceed productivity before SPS version 4.1, and

                       •   63.5 percent of SPS users stated that SPS had not substantially
                           contributed to the DoD goal of paperless contracting.


Mission Requirements
    According to the SPS Mission Need Statement, April 9, 1998, the need for a
    standard DoD procurement system arose from the requirement to improve
    efficiency and customer service by standardizing DoD processes, standardizing
    and sharing cross-functional data, and using current technology. Specifically
    SPS was expected to:

               •   facilitate user productivity by eliminating duplicate data entry, labor-
                   intensive processes, and duplicate information;

               •   provide more accurate fund citation information;

               •   provide for paperless contracting;


    3
        DoD components were the Army, Navy, Air Force, Defense Logistics Agency, and other
        Defense agencies.


                                              5
                •   improve management reporting and workload management;

                •   increase efficiency of contract actions by automation and provide an
                    automated environment where electronic commerce4 is the standard
                    interface with industry;

                •   reduce problem disbursements in contracting;

                •   improve visibility and access to contract and contractor performance
                    histories through on-line data; and

                •   provide on-line audit trails of contract data.


Guidance on Performance Measures
       Performance measures are required for all investments in information
       technology. Effective performance measures help ensure that information
       technology delivers the intended benefits.

       Clinger-Cohen Act. The Clinger-Cohen Act of 1996 requires DoD to
       evaluate the results of investments in information technology. The Act requires
       DoD to prescribe performance measurements for all information technology
       acquired. Performance measurements gauge how well the information
       technology supports specified mission requirements and should be designed to
       ensure that investments in information technology provide measurable
       improvements in mission performance. In addition, a system of milestones
       should measure progress on the capability of information technology to meet
       specified requirements.

       Executive Order 13011. Executive Order 13011, “Federal Information
       Technology,” July 16, 1996, requires performance measures to be aligned with
       the DoD performance plans under the Government Performance and Results Act
       of 1993. The 2001 DoD Performance Plan established a performance measure
       for reforming information technology management. This performance measure
       links investments in information technology to mission goals.

       Office of Management and Budget Circular No. A-130. The Office of
       Management and Budget Circular No. A-130, “Management of Federal
       Information Resources,” February 8, 1996, requires management oversight
       of information systems to ensure that each information system meets agency
       mission requirements, meets user requirements, and delivers intended
       benefits. The management oversight should provide periodic reviews of
       information systems to determine whether the systems fulfill mission
       requirements. The oversight includes systematic measures of mission
       performance and post-implementation reviews to validate mission
       performance. The post-implementation reviews should assess whether the
       information technology meets the original objectives and achieves the projected
   4
       Electronic Commerce is the interchange and processing of information using electronic
       techniques for accomplishing transactions.



                                                 6
     benefits. Post-implementation reviews provide management a baseline for
     deciding whether to continue without adjustment, to modify the system to
     improve performance, or, if necessary, to consider alternatives to the
     implemented system.

     Operation of the Defense Acquisition System. DoD Instruction 5000.2,
     “Operation of the Defense Acquisition System,” October 23, 2000, establishes a
     framework for translating mission needs into stable, well-managed acquisition
     programs. The framework includes a series of milestones that must be met for
     the acquisition program to advance to the next phase of the acquisition process.
     The Milestone Decision Authority is the individual authorized to approve an
     acquisition program’s entry into the next phase. However, for information
     systems, the Milestone Decision Authority cannot approve an acquisition
     program’s entry into the next phase until certain actions are completed. One
     required action is a written confirmation by the Chief Information Officer of the
     DoD Component responsible for the information system. The written
     confirmation must indicate that:

            •   the information system is being developed in accordance with the
                Clinger-Cohen Act, and

            •   performance measures, which are mission-related and outcome-
                based, have been developed and linked to strategic goals.

     In addition, for information systems such as SPS, which are being
     implemented in phased, successive increments, the confirmation must state
     that each increment:

            •   meets part of the mission need, independent of future
                increments, and

            •   delivers a measurable benefit, independent of future increments.


SPS User Satisfaction
     The PMO has taken steps to better identify and meet user needs, and
     respondents stated that SPS has the potential of being a very effective and useful
     tool. However, although 85.9 percent of SPS users stated that SPS was
     available always or most of the time, the audit generally substantiated the
     concerns expressed by the Chairman, House of Representatives Committee on
     Budget. According to the survey respondents who stated that they used SPS
     version 4.1, more needed to be done to improve user satisfaction in the areas of
     SPS functionality, implementation, and operation. The following discussion
     provides details on the survey questions, projected survey results for users who
     used SPS version 4.1, and additional information provided by survey




                                         7
    respondents in essay questions.5 Also included in the discussion is the
    information obtained based on Joint Interoperability Test Command (JITC)
    Operational Assessments of SPS performed from March through July 2000.

    Prior Audit Identified Functionality Issues. As a result of Inspector General,
    DoD, Report No. 99-166, the SPS Program Manager acknowledged the
    concerns of SPS users regarding the adequacy of critical functional requirements
    and took immediate steps to address user concerns. Specifically, in May 1998
    the SPS PMO established a Joint Requirements Board to reevaluate deficiencies
    identified by SPS users and changes needed in SPS to meet user needs.
    According to the DDP and PMO officials, the Joint Requirements Board was at
    that time addressing 36 additional enhancements identified by users. The Joint
    Requirements Board met monthly to address user requirements and concerns.

    Improvement to SPS Functionality. According to the survey of users, the
    projected survey results, shown in Table 1, indicated that overall functionality
    continued to be an area that needed improvement. Although about 62 percent
    of users indicated SPS had all or most of the functionality needed, about
    38 percent of the users indicated that SPS had only some or none of the
    functionality needed.


                         Table 1. “Does SPS have the functionality
                          that is needed for you to do your job?”

                                  Answer Choice                                   Percent

             1     All of the functions I need                                      12.6
             2     Most of the functions I need                                     49.0
             3 & 4 Some or none of the functions needed                             38.4

                       Total                                                       100.0


    The survey results also indicated whether SPS had the functionality necessary
    for respondents to do their jobs. The results varied by user group based on raw
    data. The respondents were assigned to user groups based on DoD Component,
    job title, version 4.1 maintenance release used, and length of use. Respondents
    most satisfied with functionality were system administrators.

    In addition, respondents reported that they were satisfied with some areas of
    SPS functionality. In the essay portion of the survey, respondents indicated the
    best features were the document management capability and that SPS was a
    Windows-based system. In addition, based on raw data, users were satisfied
    with edit checks.

    In the essay portion, respondents reported that they were not satisfied with some
    areas of SPS functionality and indicated some capabilities that needed

5
    The additional information from the essay questions provided in this report reflect comments
    received from multiple users.


                                               8
improvement. Specifically, respondents identified needed improvements for
fund citations, report generation, contract clause selection, electronic
transmission, historical data access, indefinite-delivery contracts, contract
modifications, and saving and printing documents.

            Fund Citations. SPS was expected to eliminate labor-intensive
processes and provide more accurate fund citation information. However, SPS
did not have the ability to search, edit, or globally change fund citations.
Therefore, respondents stated that they used a manual workaround to select fund
citations; however, the workaround was time-consuming, as users had to
manually scroll down through numerous fund citations for each contract line
item. Respondents suggested that functionality could be improved with a query,
edit, and global change capability. JITC Operational Assessments also
identified a need for a search feature for fund citations.

           Report Generation. One of the expected benefits of SPS was to
improve management reporting capability and workload management.
Respondents stated that the SPS reporting capability was inadequate for accurate
management and workload data, including lead-time statistics. In addition,
respondents reported that their legacy systems were used as a workaround to
generate reports. Respondents suggested the functionality of SPS be improved
so that reports could be tailored for management needs. JITC Operational
Assessments also reported a need for increased report generation functionality.

            Contract Clause Selection. When asked about the adequacy of the
contract clause selection, raw data indicated respondents who used that
functionality were about evenly split between those who said the clause selection
was inadequate and those who said that the clause selection was adequate or
better. Numerous respondents reported that SPS did not automatically select the
appropriate contract clauses. Respondents also reported that SPS generated
duplicate clauses. In addition, clauses were not put in the correct order, which
forced users into a manual workaround of cutting and pasting the clauses into
the correct order. Respondents suggested that this labor-intensive process could
be simplified if SPS automatically listed clauses in the proper order. In
addition, respondents suggested a clause template. JITC Operational
Assessments also identified a need for improved clause selection functionality.
            Electronic Transmission. Respondents reported a need for
improved functionality for electronic transmission. Of the respondents who had
transmitted files to contractors, raw data indicated that more than one-half stated
the electronic transmission functionality was not adequate. One of the
objectives of SPS was to facilitate user productivity through the elimination of
duplicate information and to provide an automated environment for electronic
commerce. However, SPS did not meet these objectives and required manual
workarounds. For example, to send a document to a contractor, respondents
indicated that they had to save the SPS generated document into Microsoft (MS)
Word and then send the contractor an e-mail with the MS Word file attached.
Because the MS Word file was read only, the contractor could not use the MS
Word document to submit a proposal. In addition, this process did not work for
modifications. Therefore, contracting officials either processed modifications in
SPS and sent a paper copy to the contractor or processed the modifications
without SPS and sent an electronic copy to the contractor. Further, drawings


                                     9
    and specifications that were larger than 8.5 by 11 inches could not be input into
    SPS for electronic transmission. JITC Operational Assessments also identified
    a need for an SPS capability to import large documents and electronically
    transmit documents.

                Historical Data Access. Respondents reported a need for improved
    historical data functionality. SPS was supposed to improve visibility and access
    to contract and contractor performance information through on-line contractor
    past performance histories. However, respondents reported that the SPS
    historical data capability was inadequate because historical data could not easily
    be viewed and searched. Respondents, including respondents who had used SPS
    for more than 12 months, reported that they used legacy systems as
    workarounds to obtain historical data. Respondents suggested that the
    functionality of SPS could be improved with an independent view and search
    capability. In addition, respondents suggested that the search capability include
    more variables. JITC Operational Assessments also reported a need for an
    enhanced search capability for contract and contractor performance information.

                Indefinite-Delivery Contracts. Respondents reported a need for
    improved functionality for indefinite-delivery contracts,6 including construction,
    architect, and engineer contracts. Respondents reported that SPS lacked the
    necessary functionality for contract award, delivery orders, task orders, and
    tracking. Therefore, respondents reported using time-consuming workarounds,
    including manual processes, to compensate for the lack of SPS functionality.

    Respondents suggested that SPS be enhanced to handle indefinite-delivery
    contracts efficiently. JITC Operational Assessments also reported a need for an
    enhanced functionality for indefinite-delivery contracts.

                Contract Modifications. One of the expected benefits of SPS was to
    increase efficiency of contract actions through automation. However,
    respondents stated that processing contract modifications in SPS was time-
    consuming, required workarounds, and were difficult to track. In addition,
    JITC Operational Assessments indicated that contract modifications, which
    previously required hours to complete, required days to complete with SPS.
    Therefore, some respondents reported that they did not use SPS for contract
    modifications. However, not using SPS for contract modifications defeated one
    of its expected benefits—development of on-line audit trails of the contract
    process and contract data. In addition, because workarounds were being used to
    process a contract modification, an on-line audit trail through SPS was
    not available.

    Respondents also reported that SPS caused unnecessary modifications to
    contracts. Respondents stated that, if they found an error in a document that
    had been released in SPS but not issued, the only way to correct the document
    was to issue a modification because the document could not be recalled in SPS.
6
    Federal Acquisition Regulation subpart 16.5, “Indefinite-Delivery Contracts,” provides that
    indefinite-delivery contracts are used to acquire supplies and/or services when the exact time and
    exact quantities of future deliverables are not known at the time of contract award. There are
    three types of indefinite-delivery contracts: definite-quantity contracts, requirement contracts,
    and indefinite-quantity contracts.



                                               10
Respondents suggested that the functionality of SPS should be improved to
include the ability to reverse the release of a document before the contract is
issued. JITC Operational Assessments also identified a need for a capability to
unrelease documents when changes are required before distribution.

            Saving and Printing Documents. Respondents indicated a need for
improved save functionality. One of the expected benefits of SPS was increased
efficiency through the elimination of duplicate data entry. However,
respondents indicated that some changes, which could only be made while using
the document view feature, could not be saved. Therefore, SPS required a
manual workaround that involved duplicate data entry of changes that could not
be saved. In addition, respondents indicated that that they could not save in all
SPS screens without having to exit the screen. This resulted in either
time-consuming saves or lost data when SPS locked up. The lost data
necessitated duplicate data entry. Respondents suggested the functionality of
SPS be improved so that data could be saved quickly at any screen in SPS.
JITC Operational Assessments also stated that SPS needed an automatic
save feature.

Respondents also indicated a need for an improved print functionality.
Respondents could delete the page breaks only while using the document view
feature. However, as stated above, changes made while using the document
view feature could not be saved. Without deleting the page breaks, SPS printed
only two contract line items per page, resulting in unnecessarily lengthy
documents or the use of a manual workaround that could not be saved.
Respondents suggested that the SPS functionality be improved to print multiple
contract lines per page.

SPS Implementation. According to our survey of users, more needed to be
done to improve user satisfaction in the area of SPS implementation. Users
identified needed improvements in the transition to SPS and training.

            Transition to SPS. The projected survey results indicated that the
transition to SPS needed improvement. Table 2 shows the projected survey
results on transition to SPS indicating that approximately 70 percent of users
experienced many problems in transitioning to SPS version 4.1.


                Table 2. “How extensive were any problems
                 encountered during the transition to SPS?”

                    Answer Choice                        Percent

              1 & 2 No or few problems                     30.1
              3     Many problems                          69.9

                       Total                              100.0




                                   11
Problems encountered during transition to SPS varied by user group based on
raw data. Respondents who had the most transition problems were users who
had used SPS for 24 months or more and buyers. Respondents who had the
fewest number of transition problems were procurement clerks.

Respondents stated that transition problems arose because of initial system
downtime and because training classes were attended too far in advance of the
transition to SPS. By the time SPS was installed, the respondents had forgotten
much of the information learned during training. Some respondents stated that
they received training more than 1 year before they transitioned to SPS. When
training was received too early, respondents requested refresher courses.
Respondents suggested that training and transition to SPS coincide. A JITC
Operation Assessment stated that training received too early hindered initial
effectiveness in using SPS.

           SPS Training. The projected survey results indicated that
training was an area that needed improvement. Table 3 shows the projected
survey results on SPS training. Based on the results, training adequately
prepared about 35 percent of users to operate and understand SPS and training
did not adequately prepare about 65 percent of SPS users to operate and
understand SPS.


             Table 3. “Did all the training received adequately
              prepare you to operate and understand SPS?”

                      Answer Choice                         Percent

          1 & 2 Yes, completely or to a large extent           35.4
          3     To a small extent                              54.9
          4     Not at all                                      9.7

                   Total                                     100.0


How well the training prepared respondents to operate and understand SPS
varied by user group based on raw data. Respondents most satisfied with
training were system administrators and respondents who had used SPS
for 24 months or more. Respondents least satisfied with training were
contracting officers.

In an essay portion of the survey, respondents indicated specific areas of
training that needed more coverage. Based on responses to the survey, training
coverage could have been improved in areas related to contract modifications;
delivery orders; clause selection; post awards; purchase requests, including
splitting and combining; small purchases; task orders; and report generation.
Survey respondents also reported that indefinite-delivery, architecture and
engineering, and construction contracts were not covered. In addition, the
respondents stated that more hands-on training was needed, including
troubleshooting and workarounds.



                                   12
SPS Operation. According to the survey of users, more needed to be done to
improve user satisfaction in the areas of SPS operation. Users identified needed
improvement in the areas of SPS guidance and problem resolution resources.
However, users were generally satisfied with the availability of SPS.

           SPS Guidance. The projected survey results indicated that guidance
was an area that needed improvement. Guidance included user manuals, release
notes, product information provided by AMS, standard operating procedures,
and documented workarounds. Table 4 shows the projected survey results on
SPS guidance. Users were about equally divided on whether guidance was
helpful. However, about 16 percent of users indicated that no guidance
was received.


            Table 4. “To what extent has guidance provided by
             AMS or the SPS Program Office been helpful?”

                     Answer Choice                            Percent

           1 & 2 Very helpful or helpful                        40.6
           3 & 4 A little helpful or not helpful                43.3
           5     No guidance received                           16.2

                    Total                                      100.0*

           *Total does not equal sum of percents due to rounding


Satisfaction with the helpfulness of guidance varied by user group based on raw
data. Respondents most satisfied with guidance were procurement clerks,
system administrators, Air Force users, other Defense agency users, and
respondents that had used SPS for 24 months or more. Respondents least
satisfied with guidance were buyers, managers, and Army users.

Respondents identified needed improvements in the user manual. They
indicated that the user manual was too generic to be practical and did not cover
all the steps necessary to perform a task. Respondents suggested a need for
guidance with an index and step-by-step instructions for each type of contract.
Respondents stated that error messages generated by SPS were not
understandable or explained in any guidance. JITC Operational Assessments
also stated that the error messages were difficult to understand.

           SPS Problem Resolution. The projected survey results indicated
that problem resolution was an area that needed improvement. Table 5 shows
the projected survey results on SPS problem resolution. Results indicate that
available problem resolution resources were not adequate for approximately
54 percent of users.




                                    13
             Table 5. “Overall, when you have a problem, are
               the available resolution resources adequate?”

                      Answer Choice                           Percent

           1 & 2 Completely or to a large extent                45.3
           3     To a small extent                              46.3
           4     Not at all                                      8.4

                    Total                                      100.0


Satisfaction with the adequacy of help resources available varied by user
group based on raw data. Respondents most satisfied with the help resources
were users who had used SPS for 24 months or more, procurement analysts,
and system administrators. Managers were the least satisfied with the
help resources.

Respondents identified needed improvements in problem resolution.
Specifically, respondents identified needed improvements for remote sites, the
help desk, and the SPS on-line help feature.

                 Remote Sites. Respondents at remote sites with databases and
offsite system administrators indicated that problem resolution resources were
not adequate. For these sites, the problem resolution resources had not
adequately addressed downtime due to connectivity problems. Because DoD
Components were in the process of moving toward regional administration of
SPS, which will result in more remote sites, it is important that the issue of
problem resolution at remote sites be addressed.

                  Help Desk. Respondents indicated needed improvements at
the help desk. The most common complaint was that numerous calls were
required before help was provided. In addition, respondents indicated that they
were told to perform the process again, which resulted in duplicate data entry.

                 SPS On-Line Help Feature. Respondents indicated that the
SPS on-line help feature needed improvement. The on-line help feature did not
adequately resolve problems.

            SPS Availability. The projected survey results indicated that SPS is
generally available. Table 6 shows the projected survey results on SPS
availability. The survey results indicated that for about 86 percent of SPS users,
SPS was available always or most of the time.




                                    14
            Table 6. “How often is SPS functional and available for your use?”

                                      Answer Choice                            Percent

                    1     Always                                                 12.7
                    2     Most of the time                                       73.2
                    3 & 4 Down more than up or never available                   14.1

                              Total                                             100.0


       Satisfaction with the availability of SPS varied by user group based on raw data.
       Respondents most satisfied with availability of SPS were Air Force users.

       Some respondents stated that the biggest problem with SPS availability was lock
       ups and Dr. Watson7 errors, which necessitated duplicate data entry. When SPS
       locked up and Dr. Watson errors occurred, data were lost and documents had to
       be recreated and information reentered, resulting in duplicate data entry. In
       addition, when SPS was not available, contract actions were performed outside
       of SPS using Form Flow.8 Then when SPS was available, the contract actions
       performed outside SPS had to be re-entered in SPS, resulting in duplicate
       data entry.

       Other respondents indicated that the availability problems with SPS were due to
       connectivity to the server. The concern with connectivity was a common
       concern with respondents with an offsite database and/or server. Because DoD
       Components were moving toward regional administration, which will result in
       offsite databases and/or servers, it is important that connectivity from remote
       sites be addressed.


Deployment and Performance Measures
       According to the survey, more needed to be done to improve user satisfaction
       because the:

                •   PMO prematurely deployed SPS,

                •   PMO had not developed performance measures to track whether SPS
                    met the mission objectives and delivered intended benefits, and



   7
       Dr. Watson is a program error debugger that detects and diagnoses program errors and then logs
       the resulting diagnostic information. In the event of a program error, Dr. Watson starts
       automatically. Technical support personnel can then use the information logged by Dr. Watson
       to diagnose problems.
   8
       Form Flow is a software package created and marketed by the Jet Form Corporation. The
       program provides blank forms which can be filled in with the necessary information.


                                                15
       •   DoD Components did not effectively coordinate training and the
           transition to SPS.

Premature Deployment. Respondents indicated that problems with SPS
functionality were due to premature deployment. Respondents felt that testing
was performed by the SPS users after deployment and more testing should have
been done prior to the deployment of SPS. Although system testing generally
will not identify all problems with a system, adequate testing will minimize
problems when the system is deployed. In 1997, JITC conducted an initial
Operational Test and Evaluation of SPS Increment 1 (SPS version 3.1) and a
follow-on Operational Test and Evaluation of SPS Increment 2 (SPS
version 3.5). In 1998, JITC conducted a follow-on Operational Test and
Evaluation of SPS Increment 3 (SPS versions 4.0 and 4.1). In all three
assessments, JITC concluded that these increments were not operationally
effective or operationally suitable, except for contracting offices having little or
no existing automated procurement support. However, despite the JITC
assessments, the PMO deployed SPS increments 1 through 3 to sites where SPS
was not operationally effective or operationally suitable. SPS was deployed
despite the JITC assessments in order to retire legacy systems before year 2000
and to address DoD problem disbursements. To prevent further premature
deployment, the PMO should perform adequate testing of the functionality of
future versions to ensure that they meet the needs of the intended users.

Performance Measures. The PMO had not developed performance measures
to track whether SPS met the mission objectives and delivered intended benefits.
Although the PMO developed system performance and capability measures,
those measures were not adequate. Therefore, the PMO needs to develop and
evaluate additional performance measures or risk developing a procurement
system that does not meet agency mission requirements, meet user
requirements, or deliver intended benefits.

            Existing Performance Measures. Although the PMO developed
system performance and capability measures in the Operation Requirements
Document, April 6, 1998, the audit clearly indicated that those measures were
not adequate to determine whether SPS met mission requirements, user
requirements, and delivered intended benefits. For example, there were
thresholds for data accuracy, data relevancy, data currency, edit checks, and
data integrity. However, there were no measures to gauge whether SPS was
providing measurable improvements in mission performance. In addition,
although there was a threshold for SPS availability, the threshold excluded
downtime caused by connectivity problems. Therefore, the threshold did not
measure the actual availability of the system for users. Further, although the
PMO indicated that the quarterly Defense Acquisition Executive Summaries
contained information on performance measures, those measures were not
adequate as the measures were similar to the performance measures in the
Operation Requirements Document. In addition, the performance characteristics
reported in the quarterly Defense Acquisition Executive Summaries did not
differentiate between different SPS versions and maintenance releases.

           Development of Performance Measures. The PMO had not
developed performance measures to determine whether SPS is incrementally
meeting the mission objectives and delivered intended benefits. To adequately


                                     16
    manage risk, it is necessary to develop performance measures early in the
    information system life cycle. Effective performance measures reduce risk and
    help ensure that each version of information technology incrementally meets
    mission objectives and delivers intended benefits. Although the SPS mission
    objectives and intended benefits are documented, the PMO did not develop
    performance measures to gauge whether the mission objectives and intended
    benefits were incrementally being achieved. The SPS Mission Need Statement
    documented the mission needs and intended benefits. The SPS Economic
    Analysis quantified the intended benefits and concluded that SPS would be a
    cost-effective solution to the mission needs.

                      Mission Need Statement. Although the Mission Need
    Statement documented the mission needs and intended benefits of SPS, the PMO
    did not develop performance measures for all the mission needs and intended
    benefits in the Mission Need Statement. For example, there are no performance
    measures for the following mission needs and intended benefits of SPS:

             •    facilitating user productivity through elimination of duplicate
                  information;

             •    providing an automated environment for electronic commerce,
                  including the capability to exchange data within DoD and
                  with industry;

             •    improved access to contract and contractor performance histories;

             •    facilitating end user productivity through elimination of redundant
                  databases, data transmission, and duplication of information;

             •    increasing efficiency of contract actions through automation;

             •    eliminating paper handling tasks and achieving paperless contracting,

             •    enhanced customer service; and

             •    reduced problem disbursements.
                      Economic Analysis. Although the SPS Economic Analysis
    quantified intended operational benefits of $1.4 billion, the PMO did not
    develop performance measures for all of the intended operational benefits. For
    example, there were no performance measures for the following operational
    benefits, which accounted for 57 percent of the intended benefits.

             •    A productivity increase due to the graphic user interface9 was
                  estimated to achieve $486 million in intended benefits, which was
                  equal to 35 percent of the total intended benefits.




9
    A user interface that displays in graphic or pictorial format rather than in text only.


                                                 17
       •   A reduction in paper and file handling costs for paper and files,
           paper and photocopy costs, and floor space for storing files was
           estimated to achieve $305 million in intended benefits, which was
           equal to 22 percent of the total intended benefits.

            Evaluation of Performance Measures. To adequately manage risk,
it is necessary to periodically evaluate performance measures throughout the
information system life cycle. The Clinger-Cohen Act of 1996 requires DoD to
monitor and evaluate information technology programs using performance
measures to determine whether to continue, modify, or terminate a program.
Periodic evaluations identify problems in a timely manner and allow DoD to
take prompt corrective action when necessary. Post-implementation evaluations
are required to assess whether the information system meets the original
objectives and achieves the intended benefits. For incrementally developed
systems like SPS, the post-implementation evaluations allow DoD to determine
whether SPS is incrementally meeting mission requirements, user requirements,
and delivering intended benefits that were used to justify the information
system. At a minimum, performance measures should be reviewed after each
version or maintenance release is deployed. The post-implementation review
would allow management to adequately address the risks before deploying a new
version or maintenance release.

            Risks from Performance Measures. The risks for developing a
procurement system that does not meet agency mission requirements or user
requirements, and does not deliver intended benefits are increased without
periodic evaluations of performance measures. In addition, the risk increases
the longer it takes to validate mission performance using performance measures.
In order to minimize risks, the PMO should develop quantifiable performance
measures and use them to evaluate each new version and maintenance release of
the SPS to ensure that SPS is incrementally meeting the mission objectives,
delivering the intended benefits, and providing measurable improvements to
mission performance. If the performance measures indicate that the SPS is not
incrementally meeting mission and user requirements, the PMO should
minimize the risks by determining corrective actions to ensure measurable
improvements to mission performance. By using performance measures to
evaluate mission performance and minimize risks, DoD can assure that the final
version of SPS will meet all mission needs and achieve all the benefits that were
used to justify SPS.

Coordination of Training and Transition to SPS. The DoD Components did
not effectively coordinate training and transition to SPS. Respondents indicated
that training was received too far in advance of the transition to SPS. It is
important to carefully coordinate training and the transition to SPS because the
effectiveness of training is reduced when held too far in advance of using a new
computer system. The DoD Components and PMO should coordinate the
training and the transition to SPS and provide refresher courses if training is
held too early.




                                   18
Results of SPS Use
     The projected survey results indicated that:

            •   60.8 percent of SPS users preferred a procurement system other
                than SPS,

            •   45.8 percent of users stated that workarounds increased,

            •   51.4 percent of SPS users stated that productivity does not exceed
                productivity before SPS version 4.1, and

            •   63.5 percent of SPS users stated that SPS had not substantially
                contributed to the DoD goal of paperless contracting.

     The following discussion shows the survey questions related to the impact of
     user satisfaction, projected survey results for users who used SPS version 4.1,
     and supporting information provided by survey respondents in essay questions.

     Preferred Procurement System. The projected survey results indicated that a
     majority of SPS users preferred a legacy procurement system or other means to
     perform procurement functions other than SPS. Table 7 shows the projected
     survey results on the preferred procurement system. Specifically, while about
     40 percent preferred SPS, about 60 percent preferred a system other than SPS.


                Table 7. “If you had a choice of procurement systems,
                                 would you choose?”

                        Answer Choice                       Percent

                    1        SPS                              39.2
                    2        Legacy system                    31.5
                    3        Other                            29.3

                              Total                          100.0


     The procurement system of choice varied by user group based on raw data.
     Respondents most likely to choose SPS as their system of choice were
     procurement clerks and system administrators.

     The projected survey results indicated that about 60 percent of SPS users would
     choose a legacy procurement system or other means to perform procurement
     functions other than SPS. That may have reflected respondent dissatisfaction
     with the functionality and operation of SPS. In essays, respondents stated that
     SPS had less functionality, required more steps, and was slower than their
     legacy system. In addition, all necessary interfaces had not been built, such as
     interfaces with supply and accounting systems.




                                         19
SPS Workarounds. The projected survey results indicated that workarounds in
SPS increased in comparison to the use of workarounds with the users’ legacy
systems. Table 8 shows the projected survey results on SPS workarounds.
Specifically, about 45 percent of users indicated an increase in the number of
workarounds since implementing SPS as compared to 31 percent who stated the
number of workarounds with SPS were about the same or less than those used
with a legacy system.


 Table 8. “Compared to your legacy system (previous automated system),
            how many workarounds are you using in order to
            make SPS function appropriately for your site?”

                       Answer Choice                    Percent

              1      Did not use a legacy system          22.9
              2&3    A lot more or more                   45.8
              4      About the same                       16.3
              5&6    Less or a lot less                   15.0

                      Total                              100.0


The number of workarounds varied by user group based on raw data.
Respondents who reported the least workarounds were procurement clerks.
Respondents who reported the most workarounds were managers and Air
Force users.

Respondents indicated that the lack of functionality resulted in time-consuming
workarounds. First, respondents waited for the workarounds to be developed.
Then respondents performed the workarounds, which were often time-
consuming. Respondents reported that workarounds were required for all
phases of the procurement process including fund citations, report generation,
contract clause selection, electronic transmission, historical data access,
indefinite-delivery contracts, contract modifications, and saving and printing
documents. JITC Operational Assessments also reported concerns with the
number of workarounds and the time required to perform the workarounds. The
increase in workarounds was contrary to the DoD Functional Area Reform Goal
of reforming the information technology management processes to increase
efficiency and mission contribution.

The workarounds included manual changes to SPS generated documents. For
example, when SPS did not correctly number a modification, users manually
changed the modification number. In a paper-based procurement process,
manual changes to computer-generated documents may have been acceptable,
but as DoD moves to paperless contracting, manual changes cannot not be used
to compensate for system deficiencies, without jeopardizing the intended
benefits of electronic transmission.




                                  20
Productivity. The projected survey results show that the level of user
productivity does not exceed productivity levels achieved before the introduction
of the SPS, 4.1 series. Table 9 shows that about 13 percent of users stated that
productivity increased, 36 percent stated productivity was about the same, and
51 percent of users reported that productivity had not increased since SPS
version 4.1 was implemented.


           Table 9. “Since the deployment of the SPS 4.1 series:”

                          Answer Choice                        Percent

         1 & 2 Productivity increased immediately or
               productivity initially decreased but has
               since increased and now exceeds
               productivity before SPS, 4.1 series               12.7
         3     About the same                                    35.9
         4 & 5 Productivity decreased or productivity
               initially decreased but has since increased,
               however, productivity still does not exceed
               productivity before SPS, 4.1 series               51.4

                  Total                                         100.0


The impact of SPS on productivity varied by user group based on raw data.
Respondents who were most satisfied with the level of productivity were Navy
users. Respondents who were least satisfied were Air Force users.

The projected survey results indicated that a majority of SPS users stated that
productivity had not increased which was contrary to the DoD Functional Area
Reform Goal of reforming the information technology management processes to
increase efficiency and mission contribution. The decrease in productivity
reflected the lack of SPS functionality and problems in implementation and
operation of SPS. For example, one respondent, who had used SPS for more
than 1 year, stated that SPS takes 25 to 30 percent longer. Another respondent,
who had used SPS for more than 6 months, stated that an action that would take
15 to 30 minutes in the legacy system took 2 to 2.5 hours in SPS.

Paperless Contracting. According to the survey, SPS had not substantially
contributed to the DoD goal of paperless contracting. Table 10 shows the
projected survey results on paperless contracting. Specifically, about 37 percent
of users reported that SPS allowed them to move completely, or to some extent
toward, paperless contracting while about 63 percent of users reported that SPS
allowed them to move a small extent or not at all toward paperless contracting.




                                   21
                  Table 10. “Has SPS allowed you to move
                      toward paperless contracting?”

                     Answer Choice                           Percent

           1 & 2 Completely or to a some extent                36.5
           3     To a small extent                             35.8
           4     Not at all                                    27.7

                   Total                                      100.0


The impact of SPS on paperless contracting varied by user group based on raw
data. Respondents who reported the greatest movement to paperless contracting
were users who had used SPS for more than 24 months and system
administrators. Respondents who reported the least movement to paperless
contracting were buyers, procurement clerks, and other Defense agency users.

The projected survey results indicated that SPS allowed only about 37 percent of
SPS users to move completely or to some extent toward paperless contracting.
However, the DoD Functional Area Reform Goal is to decrease paper
transactions by 50 percent. Respondents stated that SPS did not contribute
substantially toward paperless contracting because of the lack of functionality.
In addition, to meet the DoD goal of being 90 percent paperless by January 1,
2001, some users stopped using SPS for contract modifications. Users stated
that they did not use SPS for contract modification because modifications
generated in SPS could not be electronically transmitted.

The projected survey results differed substantially from the published DoD
reports on paperless contracting, which indicated that more than 67 percent of
contracting actions were paperless. The difference between the survey results
and the DoD reports was attributable to how paperless contracting actions were
counted for DoD reports. For example, the Army web-based paperless
contracting metrics guidance provided that a signed paper copy is counted as
paperless if the paper copy was created electronically with an automated
contracting system. The Navy web-based paper-free acquisition metrics guide
provided that a signed paper copy is counted as 90 percent paperless. The
Air Force web-based instruction provided that a signed paper copy is counted as
paperless. The Air Force also counted transactions as paperless when
documents were both transmitted electronically and via a paper copy. For
example, if a vendor requested a paper copy of a solicitation, the transaction
was counted as paperless if the solicitation was also made available via other
non-hard copy means. For DoD reporting purposes, some paper transactions
are counted as paperless. The survey respondents stated, however, that they
actually dealt with the paper copies, and, therefore, indicated that SPS had not
substantially contributed to paperless contracting.

Some respondents indicated an increased use of paper since SPS was
implemented. This was because SPS printed only two contract line items per
page, making documents longer than documents created in legacy systems.


                                   22
    To validate that SPS is achieving the goals of paperless contracting, the DDP
    needs to establish a performance measure to measure SPS progress in meeting
    that goal.


Conclusion
    Implementation of any new system as far-reaching and complex as SPS can
    expect initial difficulties in implementation, user resistance, and user
    dissatisfaction. Since our last report, the PMO has worked hard to coordinate
    with the DoD Components to address user concerns. However, except for
    positive perceptions on SPS reliability, the user community remained
    fundamentally dissatisfied, and more needed to be done to promote greater
    acceptance and user confidence in the areas of SPS functionality,
    implementation, and operation. The PMO tested and accepted SPS, and DoD
    Components determined whether to deploy SPS. However, respondents to the
    survey stated that testing was inadequate to determine whether SPS was
    operationally effective or operationally suitable for their sites. In addition, the
    lack of effective performance measures affected management ability at the DoD
    Component level to make deployment decisions based on whether SPS would
    meet the intended mission objectives and deliver the intended benefits.
    Appropriate performance measures would enable DoD Components to make
    more effective deployment decisions. Using performance measures would help
    assess whether each new version of SPS was incrementally improving mission
    performance so that, by the time the final version of SPS is deployed, DoD
    either will be assured that all SPS objectives are met or can consider
    supplementary or alternative tools for the procurement workforce.

    At the outset, the DDP and the PMO accepted the initial functionality shortfalls
    in an effort to get SPS deployed, particularly to those sites that still relied on
    manual processing of procurement requirements. Although their motives to
    assist procurement officials in performing their jobs more efficiently may be
    laudable, the survey indicated that SPS version 4.1 still has not closed the
    functionality gap. The degree to which version 4.2 will close the gap and
    generate greater user satisfaction remains to be seen. The PMO needs to
    monitor testing, implementation, and user satisfaction to ensure that version 4.2
    and any subsequent versions deliver the intended benefits.

    The acquisition approach called modular or spiral development poses certain
    advantages in terms of putting advanced technology into the hands of users
    quickly. The SPS program’s experience has shown, however, that user
    acceptance of this approach may not be easy to attain.




                                         23
Recommendations, Management Comments, and
Audit Response
    A.1. We recommend that the Director, Defense Procurement, direct the
    Standard Procurement System Program Manager to:

               a. Perform adequate testing to ensure that each future version
    has the functionality required to meet the needs of intended users prior to
    the release of each new version of the Standard Procurement System.

    DDP Comments. The DDP concurred with the recommendation. The DDP
    stated that a formal, multi-step testing process is an integral part of the SPS
    acquisition strategy and has been in place since contract award to ensure that
    SPS meets contractual requirements and users needs. Testing has included
    contractor testing prior to release to the Government, Government acceptance
    testing to verify that the software satisfies contract requirements, independent
    operational testing, and user field testing to determine whether the SPS satisfied
    user needs. In addition, user recommended enhancements are referred to a
    structured requirements process for consideration.

    DCMA Comments. DCMA concurred with the intent of the recommendation.
    Like the DDP, DCMA stated that testing is a critical part of PMO and DoD
    Component efforts to ensure the adequacy of each SPS version. The testing
    process begins with the definition of contract requirements by the Joint
    Requirements Board and includes testing during development, acceptance testing
    based on contract requirements, and testing to confirm that SPS operates in the
    representative operational infrastructure. Representatives of the DoD
    Components have been involved in all phases of the testing. Because of the
    existing testing process, DCMA stated that no further action was required.

    Audit Response. Although the DDP and DCMA concurred with the
    recommendation, we do not consider the comments to be fully responsive. We
    agree that testing procedures already exist. However, audit results indicate that
    existing test procedures did not ensure that intended users have the functionality
    needed to perform their jobs. About 38 percent of survey respondents stated
    that SPS version 4.1 had only some or none of the functionality needed. In
    addition, survey respondents believed that testing, which should have been done
    before deployment, had to be performed by SPS users after deployment.
    Furthermore, JITC conducted three operational assessments of SPS, including
    one since the Joint Requirements Board was established to better address user
    needs. In all three assessments, JITC concluded that SPS was not operationally
    effective or operationally suitable, except for sites having little or no existing
    automated procurement systems. Despite the JITC assessments, the PMO
    accepted, and DoD Components deployed SPS to sites where SPS did not have
    the functionality for the sites’ missions.

    Further evidence of the shortcomings in present testing procedures was the use
    of numerous and time-consuming workarounds. According to a JITC
    operational assessment, users reported that although new releases of SPS
    corrected problems that required workarounds, the new releases contained new

                                        24
problems that required new workarounds. Users also expressed concern with
the number, complexity, and inefficiency of the workarounds. Although system
testing generally will not identify all system problems, adequate or more
appropriate testing should minimize the need for workarounds once a release
is deployed.

Despite existing test procedures, more needs to be done to ensure that future
versions of SPS are operationally effective and contain the functionality required
to reasonably meet user needs.

We request that the DDP provide additional comments to the final report that
specifically address how testing procedures will be improved to ensure that each
future version of SPS prior to release has the functionality required to meet
intended user needs.

Additional Recommendation. As a result of management comments, we added
Recommendation A.1.b.4. to clarify the required performance measures.

          b. Develop quantifiable performance measures that gauge
whether the Standard Procurement System:

                  1. Meets the mission objectives.

                  2. Increases productivity of contracting personnel.

                  3. Achieves the goals of paperless contracting
as envisioned.

                  4. Delivers intended benefits.

DDP Comments. The DDP partially concurred with the recommendations
A.1.b.1. through A.1.b.3. The DDP stated that SPS was a commercial product
that is being modularly enhanced to satisfy DoD requirements. As such, the
SPS acquisition strategy explicitly accepted commercial product performance for
the initial software release, and subsequent requirements identify the functions
DoD wants SPS to perform without specifying how SPS must perform those
functions. In addition, the DDP identified impediments to developing
performance measures at this time. For example, the SPS Operational
Requirements Document established requirements to satisfy mission needs;
however, a productivity performance measure was not practicable because
contracting activities have different supporting infrastructures that affect
software performance. Thus the lack of a common baseline did not permit
establishing meaningful, DoD-wide, productivity measures for SPS.

The DDP also stated that the real contribution of SPS is its ability to exchange
information with financial, logistics, and requirements generation systems, and
suggested that performance measures could be developed once these systems
come on line. Further, the DDP suggested that performance measures for
paperless contracting be considered once requirements are better defined for the
“end-to-end process.”




                                    25
DCMA Comments. DCMA concurred with the intent of the recommendations
A.1.b.1. through A.1.b.3. However, DCMA indicated that because
performance measures already exist and are tested, no further action is required.
DCMA stated that SPS is a commercial product and performance measures were
already defined in the Operational Requirements Document. DCMA also
commented that SPS was not established to achieve productivity enhancements
for individual DoD Components, but for DoD as a whole and that performance
measures for specific versions of SPS were not included in the contract. DCMA
also stated that although SPS version 4.1 has the paperless contracting
capability, full implementation of paperless contracting is dependent on the
exchange of data between procurement, logistics, and finance systems, which
are not yet complete. DCMA stated that no further action was required on the
recommendations.

Audit Response. The DDP and DCMA comments were nonresponsive. We
agree that the Operational Requirements Document established performance
measures for some operational capabilities. Further, by purchasing a
commercial product, we may not have the ability to specify how proprietary
software will perform. However, as reported in Inspector General, DoD,
Report No. 99-166, “Initial Implementation of the Standard Procurement
System,” May 26, 1999, the DDP acknowledged that the initial SPS product
would only accomplish 45 percent of DoD procurement functions, with
55 percent being accomplished through modifications to the commercial
product. As such, it is important to ensure that the other 55 percent meets
user needs.

Although the Operational Requirements Document included performance
measures for data accuracy, data relevancy, data currency, edit checks, and data
integrity, these performance measures did not determine whether SPS meets
mission needs. As such, existing performance measures have not effectively
assessed the adequacy of SPS performance within DoD. The SPS Mission Need
Statement identified goals such as increasing contractor personnel productivity;
eliminating redundant databases; data transmission, and duplicate information;
achieving paperless contracting; reducing problem disbursements; facilitating
electronic commerce; making historical data accessible; and enhancing customer
service. For example, according to audit results, about 51 percent of survey
respondents indicated that productivity did not exceed productivity before SPS.
Survey respondents also stated that SPS has not enhanced customer service. In
addition to the survey results, a JITC Operational Assessment also reported a
decrease in customer satisfaction.

The Mission Need Statement added paperless contracting in 1998, and the SPS
Economic Analysis identified about $305 million of intended benefits from
reduced costs for paper and filing, photocopy, and storing paper files.
According to the survey, SPS paperless contracting capabilities needed
improvement. For example, survey respondents indicated that to transmit a
contract electronically, a document must be saved in MS Word, then attached to
an e-mail rather than being transferred by SPS directly. This requires the
performance of duplicate steps and creates duplicate files. Also, contracting
officials either had to process modifications in SPS and send a paper copy to the
contractor or process modifications without SPS and send an electronic copy to
the contractor. Further, large drawings and specifications could not be input


                                   26
into SPS and electronically transmitted. As such, a performance measure
should be initiated to better identify how SPS is achieving the expected cost
savings and meeting user needs.

The Clinger-Cohen Act requires that performance measures be established for
any system to gauge how well a system is meeting mission requirements. Thus,
to meet Clinger-Cohen requirements as well as to fully assess whether SPS is
achieving the intended benefits and meeting the mission objectives, the PMO
needs to develop performance measures for the factors that were used to
justify SPS.

We request that the DDP provide additional comments in response to the final
report that specifically address how it will gauge whether SPS is meeting
mission needs, increasing productivity, achieving paperless contracting goals,
and achieving the intended benefits that were used to justify SPS. In addition,
the DDP should provide comments on Recommendation A.1.b.4. that was
added to the final report to clarify that the SPS performance measure need to
determine whether SPS is delivering intended benefits.

         c. Evaluate each new version of the Standard Procurement
System against performance measures before deploying a new version or
maintenance release.

           d. Determine corrective actions, when the performance measures
indicate the Standard Procurement System is not meeting mission
requirements, user requirements, and delivering intended benefits.

DDP Comments. The DDP concurred with Recommendations A.1.c. and
A.1.d. The DDP stated that since contract award, a formal testing process
has been in place to assure SPS meets the contractual requirements and users
needs. Testing included contractor testing to assure that SPS is ready for
release to the Government, Government acceptance testing to verify that the
software satisfies contract requirements, and independent operational and
user field testing to determine whether the SPS satisfied user needs. In
addition, potential enhancements suggested by the user during field testing are
referred to a structured requirements process that assures user recommendations
are considered.
DCMA Comments. The DCMA concurred with the intent of
Recommendations A.1.c. and A.1.d. However, DCMA stated that if SPS does
not meet mission requirements nor deliver intended benefits, the Milestone
Decision Authority is responsible for directing program changes. As such, the
DCMA stated that no further action was required.

Audit Response. Although the DDP and DCMA concurred with the intent of
the recommendations, the comments were not fully responsive. The audit
results clearly indicate that significant progress still needs to be made for SPS to
meet the mission needs and deliver measurable benefits. The Milestone
Decision Authority cannot make an informed decision without adequate
information. Therefore, to provide the Milestone Decision Authority with a




                                     27
baseline for deciding whether to continue SPS without adjustment or to make
significant changes to SPS in order to improve performance, the DDP and
PMO must:

       •   develop appropriate performance measures (Recommendation
           A.1.b.),

       •   evaluate each new version of SPS against performance measures to
           determine whether SPS is incrementally meeting the mission needs
           and delivering measurable benefits, independent of future versions
           (Recommendation A.1.c.), and

       •   determine corrective actions, if the evaluation of the performance
           measures indicates that SPS is not meeting mission needs and
           delivering measurable benefits (Recommendation A.1.d.).

Once the above actions are completed, the DDP and PMO can determine
whether corrective actions should be taken, and what Milestone Decision
Authority approvals are needed. If SPS cannot fully meet user needs,
supplementary or alternative tools may be necessary.

The Milestone Decision Authority is scheduled to decide on the next SPS
milestone in April 2002. According to DoD Instruction 5000.2, “Operation of
the Defense Acquisition System,” October 23, 2000, the DCMA Chief
Information Officer must provide a written confirmation to the Milestone
Decision Authority that SPS is being developed in accordance with the Clinger-
Cohen Act, including a description of how each increment of SPS meets mission
needs and delivers a measurable benefit, independent of future versions. Thus,
to meet Clinger-Cohen requirements and to attest to the Milestone Decision
Authority that SPS is incrementally meeting mission needs and delivering
measurable benefits, the DDP needs to complete actions under
Recommendations A.1.b., A.1.c., and A.1.d.

We request that the DDP provide additional comments in response to the final
report that specifically address how it will evaluate each new version of SPS
against performance measures to determine whether SPS is incrementally
meeting mission needs and delivering measurable benefits, and indicating
whether DDP will seek supplementary or alternative tools if necessary to meet
mission objectives.

A.2. We recommend that the Director, Defense Procurement, direct the
DoD Components to:

           a. Coordinate, with the Program Manager, training and the
transition to the Standard Procurement System Program so that the
Standard Procurement System is available for use when personnel receive
training classes.

           b. Provide refresher courses for individuals receiving training
too far in advance of the transition to the Standard Procurement
System Program.



                                   28
DDP Comments. The DDP partially concurred. The DDP stated that the DoD
Components are responsible for ensuring that training at their sites is adequate
and timely. The DDP further stated that the PMO confers weekly with the DoD
Components to ensure that training courses are scheduled as close to site
installations as possible. However, the DDP agreed to remind the DoD
Components to determine whether any employees require any additional training
and to coordinate the training requirements and schedules with the PMO.

Audit Response. The DDP comments were responsive.




                                   29
           B. Use of the Standard Procurement
              System
           According to our survey of SPS users, we projected that about
           26.5 percent of individuals identified by DoD Components as licensed to
           use SPS version 4.1 have not used it. Respondents indicated that they
           have not used SPS version 4.1 because the DoD Components:

                  •   deployed SPS to sites even though SPS did not have the
                      functionality needed for those sites’ missions, and

                  •   deployed SPS to employees that did not require SPS to
                      perform their jobs.

           In addition, the DoD Components identified employees as licensed
           to use SPS even though those employees did not have SPS installed
           on their computers.

           As a result, we estimated the PMO spent up to $2.1 million of the
           $7.9 million in license costs on licenses for users who could not or did
           not use SPS. These funds could have been put to better use elsewhere.
           In addition to the license costs, the PMO and DoD Components spent
           time and resources for unnecessary SPS deployments.


SPS Usage
    According to our survey of users, we projected that about 26.5 percent of
    individuals identified by DoD Components as licensed to use SPS version 4.1
    did not use it. Respondents indicated that, rather than use SPS version 4.1 to
    perform their job, they used an earlier version of SPS, a legacy system, a
    manual process, MS Office products, or other means.

    Respondents who have not used SPS version 4.1 did not do so because the DoD
    Components deployed SPS to sites even though SPS did not have the
    functionality needed for those sites’ missions and deployed SPS to employees
    that did not require SPS to perform their jobs. In addition, the DoD
    Components identified employees as licensed to use SPS even though those
    employees did not have SPS installed on their computers.

    Incremental Deployment. According to the SPS acquisition strategy, SPS
    would be delivered in 4 increments (versions 3.1, 3.5, 4.0, and 4.1) of
    increasing functionality until a total of 299 procurement functions were
    deployed. Increment 1 included 69 of the 299 functions identified as suitable
    for testing and deployment to DoD sites that had limited or no automated
    procurement capabilities (mostly Navy sites). Increment 2 was to undergo
    operational testing while Increment 1 was being deployed; Increment 2 would be
    back-fitted and deployed to sites that had already received Increment 1, as well


                                       30
 as to other sites. The practice would be repeated with each increment. DoD
 began receiving version 4.1 in September 1998. As such, the PMO recognized
 and accepted that shortfalls in functionality would be unavoidable.

 Functionality Needs of Sites. The DoD Components deployed SPS version 4.1
 to sites even though SPS did not have the functionality needed for the missions
 at those sites. For example, respondents indicated that there were no SPS users
 at two of the sample sites, including sites that performed procurement functions
 for construction, and architecture and engineering services. Respondents
 indicated that SPS version 4.1 was not used because it did not have all the
 functionality needed for construction, architecture, and engineering
 contracting—which is their mission.

 Operational Assessment Results. The JITC, which conducted Operational
 Assessments of SPS version 4.1 at 24 sites, also found that SPS version 4.1 was
 deployed to sites even though SPS version 4.1 did not have the functionality
 needed for that site’s mission.10 JITC found three sites that did not use SPS
 version 4.1 and one site that awarded only a small portion of its contracts using
 SPS version 4.1.

             Sites Using SPS. Three sites did not use SPS version 4.1 because
 SPS did not have the functionality needed for those sites’ missions. JITC
 determined that multiple versions of SPS had been deployed to the Space and
 Naval Warfare Systems Command, San Diego, California. That site, which
 procured major weapons systems, had not used SPS because SPS did not have
 the functionality needed for major weapons systems. SPS will not have the
 functionality needed for major weapons systems until version 5.0, which is
 scheduled for deployment in the second quarter of FY 2002. In addition, JITC
 found that since 1997 multiple versions of SPS were deployed to the
 Superintendent of Shipbuilding, Newport News, and Portsmouth, Virginia,
 although those sites did not use SPS because SPS did not have the needed
 functionality for the sites’ missions.

             Contracts Awarded Using SPS. JITC found that the Naval
 Facilities and Engineering Command, San Diego, California, used SPS
 version 4.1 to award only a small portion of its contracts. Prior to deploying
 SPS in August 1999, the Naval Facilities and Engineering Command at San
 Diego had no automated procurement system. Since the SPS deployment, the
 site awarded only 4 contracts using SPS of the approximate 40 to 50 contracts
 awarded per month. This is because SPS did not have the functionality for large
 and complex contracts, which comprise most of the contracts awarded at the
 site. In addition, 40 percent of the site’s contracts were awarded through
 simplified acquisition procedures, but SPS was not used for the simplified
 acquisitions because there was no site requirement to use SPS. Further, users
 were hesitant to invest much time and effort in using SPS because users believed
 that SPS may ultimately not meet the site’s mission needs.

 SPS Needs of Employees. The DoD Components deployed SPS version 4.1 to
 employees who did not require SPS to perform their jobs. For example, SPS

10
     These sites were not included in our sample of sites.



                                               31
    was deployed to employees such as engineers, engineering technicians, and
    attorneys although they did not use SPS. However, SPS was intended for use
    by contracting employees and not by engineers or attorneys. In addition, SPS
    was deployed to contracting employees who did not require SPS to perform
    their jobs. For example, SPS was deployed to employees performing functions
    such as administering construction contracts and procurement management
    reviews who stated that they did not need SPS to perform their jobs. SPS will
    not have the functionality needed for contract administration until version 4.2,
    which is scheduled for deployment in the second quarter of FY 2001.

    Identification of Users. The DoD Components identified employees as
    licensed to use SPS even though those employees did not have SPS installed on
    their computers. For purposes of the survey, we requested from the DoD
    Components and were supplied with a list of personnel who, according to DoD
    Component records, received SPS version 4.1 licenses and were considered
    “SPS users.” However, based on results of the survey, the lists were not
    accurate. We contacted individuals that chose not to remain anonymous when
    responding to the survey and stated that they did not use SPS. Of the
    22 individuals who responded, 7 indicated they did not have SPS installed on
    their computers and did not need it to perform their jobs.


Resources Expended and Implementation of Future Versions
    We estimate that the PMO spent up to $2.1 million of the $7.9 million in license
    costs on unnecessary licenses for personnel who did not use SPS. In addition to
    the license costs, the PMO and DoD Components spent time and resources for
    unnecessary SPS deployments. Furthermore, by deploying SPS without the
    needed functionality to meet sites’ missions, the DoD Components may have
    made users reluctant to implement future versions of SPS.

    License Costs for Sites. The PMO incurred unnecessary license costs when
    SPS was provided to sites even though SPS did not have the functionality needed
    for the sites’ missions. For example, we determined that there were no users at
    two sites because, according to survey respondents, SPS functionality did not
    meet the sites’ missions. For another 11 of the 120 sites in the survey, all
    respondents stated that they did not use SPS. In addition to our survey, JITC
    determined that 3 of the 24 sites included in its Operational Assessments had no
    SPS users.

    License Costs for Employees. The PMO may have incurred unnecessary
    license costs when SPS was deployed to employees who did not require SPS to
    perform their jobs. We cannot precisely quantify the total amount of
    unnecessary license costs because of the way in which licenses were purchased.
    Licenses were purchased in blocks of 1, 2–10, 11–24, 25–50, 51–100, 101–250,
    251–500, and 501–1000. The license cost was also dependent on the office
    suite used (WordPerfect or MS Office), and the hardware platform. For
    example, if a site had 51 users, MS Office, and a Hewlett-Packard 9000
    platform, the license costs for the site were $24,335 in 2000. If the site had
    100 users, the license costs were also $24,335 in 2000. However, if the site had
    101 users, the license costs for the site were $47,171 in 2000.


                                       32
Estimate of License Costs. We estimate that the PMO spent up to
$2.1 million, or up to 26.5 percent of the $7.9 million in license costs, on
unnecessary licenses for users who did not use SPS. We estimated the
unnecessary license costs based on the projection that about 26.5 percent of
users, identified by DoD Components as licensed to use SPS version 4.1, did
not use version 4.1. According to the PMO, some of the $2.1 million is time
value of money as a result of his purchasing licenses before necessary. Based
on our review of the license costs, although some of the license costs increased
in the option years, other costs decreased.

Other Resources. In addition to expending unnecessary funds on licenses, the
PMO and DoD Components spent time and resources for unnecessary SPS
deployments. Deployment costs include time and resources for installation,
travel, and training. In addition, some DoD Components contracted with AMS
and other contractors for deployment support. For example, Inspector General,
DoD, Report No. 99-166, “Initial Implementation of the Standard Procurement
System,” May 26, 1999, stated the Air Force Contracting Information System
Program Office estimated that DoD Components may spend $70 million for
additional contractor support for SPS implementation.

Implementation of Future Versions. By deploying SPS without the needed
functionality to meet the sites’ missions, the DoD Components may have made
users reluctant to implement future versions of SPS. The JITC Operational
Assessments indicated that based on problems encountered with versions 3.1 and
3.5, users were reluctant to implement version 4.1. By deploying version 4.1 to
sites even though SPS did not have the functionality needed for the sites’
missions, the DoD Components increased the risk that problems encountered
with version 4.1 will negatively impact user acceptance of future versions
of SPS.

Conclusion
The audit determined that up to $2.1 million was spent on unnecessary license
costs. Although the PMO has been addressing user needs through the Joint
Requirements Board and making improved versions available, it is up to the
DoD Components to ensure that the needed functionality exists before deploying
SPS. DoD Components should carefully consider decisions to deploy SPS to
the remaining activities. Before deploying SPS to a site, the DoD Components
need to first determine whether SPS has the functionality to meet that site’s
mission. Once DoD Components determine that SPS has the functionality for a
site’s mission, the DoD Components then need to determine whether individual
employees require SPS to perform their jobs. Only after these two
determinations are made can the DoD Components accurately determine the
number of required licenses. The DoD Components should:

       •   document their decision that SPS has the necessary functionality to
           meet the mission needs of the site,

       •   document the number of licenses required, and

       •   maintain a record of the licenses and make adjustments if the site’s
           license requirements change.


                                   33
Recommendations, Management Comments, and
Audit Response
    Deleted, Renumbered, Revised, and Redirected Recommendations. As a
    result of management comments, we revised draft Recommendations B.1.a. and
    B.1.c., deleted draft report Recommendation B.2.b., renumbered
    Recommendation B.2.a. to B.2., and revised and redirected Recommendation
    B.2. to the DDP. In addition, we deleted Recommendation B.3.b., which
    resulted in renumbering Recommendation B.3.a. to B.3.

    B. We recommend that the Director, Defense Procurement:

           1. Require DoD Components, prior to any future deployment of
    either a new version or maintenance release, to:

                    a. Provide assurance showing that it has determined that the
    Standard Procurement System has the functionality to meet each requesting
    site’s mission.

                  b. Determine the number of employees at each site who
    require the Standard Procurement System to perform their jobs.

                   c. Provide assurance that the number of licenses requested
    by site is appropriate.

                   d. Correct existing records of Standard Procurement System
    licenses or establish such records, and redistribute licenses when employees
    no longer require the Standard Procurement System to perform their jobs.

    DDP Comments. The DDP partially concurred with draft
    Recommendation B.1. The DDP stated that Recommendations B.1.a. through
    B.1.c. need to be tailored for individual DoD Component organizational and
    mission-related requirements, and therefore, are handled by DoD Components.
    Further, the DDP contends that to require DoD Components to submit
    documentation to the DDP, as specified in draft Recommendations B.1.a. and
    B.1.c., would add to SPS deployment costs, delay deployment of new or
    improved functionality, and be inconsistent with organizational accountability
    and responsibility concepts. For Recommendation B.1.d., the DDP stated that
    SPS licenses are not user specific. Therefore, there is no need to redistribute
    licenses within a site. In addition, the transfer of licenses among sites can be
    accomplished within the license agreement or through negotiations.

    DCMA Comments. DCMA partially concurred with Recommendation B.1.
    DCMA stated that once the PMO accepts the software, it is up to the DoD
    Components to validate that interfaces are operational, that the software works
    in the component architecture and environment, and that SPS meets their users’
    needs. Once validation has been performed, it is up to the DoD Components to
    request installation and training from the PMO including specifying the sites,
    identifying intended users, and maintaining license distribution. The PMO



                                       34
purchases licenses based on the number of users at each site and redistribution is
limited by the contractual terms and existing license agreements. Based upon
this information, DCMA considered the action to be complete.

Audit Response. We consider the DDP and DCMA comments to be partially
responsive. We agree that the DoD Components should be responsible for
determining the necessary functionality of a version and the number of licenses
needed. However, based upon audit results, more than 26.5 percent of
individuals identified by DoD Components as licensed to use SPS version 4.1
have not used it because it lacks the necessary functionality for their missions or
because SPS is not needed to perform their jobs. The DoD Components have
not been accurately assessing SPS needs prior to requesting that the PMO
purchase licenses. For example:

       •   SPS was installed for 6 months at two sites but had no users because
           of functionality shortcomings.

       •   SPS was deployed to employees such as engineers, engineering
           technicians, and attorneys although they did not require SPS to
           perform their jobs.

       •   SPS was deployed to contract administrators who do not require SPS
           to perform their jobs because SPS will not have the needed
           functionality for contract administration until version 4.2 is deployed.

In addition to audit results, the JITC Operation Assessments identified
three sites that did not use SPS because of functionality shortfalls, including
sites that had SPS installed since 1997. We estimate that $2.1 million has
been wasted.

If the deployments were properly planned, users would transition to SPS shortly
after SPS was installed, not years after SPS was installed. Therefore, DoD
Components need additional guidance or procedures to determine whether SPS
has the functionality to meet each site’s mission needs to avoid unnecessary
purchases of licenses.

The DCMA stated that DoD Components submit planning information for SPS
deployments as a part of the yearly cycle, while delivery orders for licenses are
not issued until 2 to 4 weeks before installation. As such, it should be
reasonable for DoD Components to provide the DDP or PMO with information
on licensing needs as part of the yearly requirement and make adjustments prior
to the delivery order. In view of DDP concerns about the administrative burden
of potentially voluminous documentation, we revised Recommendations B.1.a.
and B.1.c. to provide reasonable flexibility. We request that the DDP provide
additional comments to the final report on Recommendations B.1.a. and B.1.c.

       2. Obtain assurance from the DoD Components, that they have,
prior to any future deployment of either a new version or maintenance
release, accurately determined that the Standard Procurement System will
meet each site’s mission and that deployment to the site is appropriate.




                                     35
DDP Comments. The DDP nonconcurred with Recommendation B.2. The
DDP stated that DoD Components are responsible for determining whether SPS
meets their mission needs. The PMO is not in the position to validate a DoD
Component’s decision that SPS meets a site’s mission needs.

DCMA Comments. DCMA nonconcurred with Recommendation B.2. DCMA
stated that the PMO should not be responsible for validating the actual number
of employees to receive SPS and determining whether each DoD Component
site should receive new versions or maintenance releases for the SPS. Rather,
the PMO believes it is the responsibility of each site command to perform these
functions. The DCMA considered the action to be complete.

Audit Response. We consider the DDP and DCMA comments to be partially
responsive. We agree that responsibility for determining whether a version of
SPS meets each site’s mission should be the responsibility of the DoD
Components. However, the PMO and DDP need to be proactive and question
how the sites are validating their license requirements. Therefore, we maintain
that the DDP, as the DoD organization responsible for SPS, should seek
credible assurance from the DoD Components that requirements have been
verified before expending funds to obtain additional licenses. We request that
the DDP provide additional comments to the final report.

      3. Direct the Program Manager to purchase licenses for all future
deployments only after the DDP validates that the Standard Procurement
System meets the mission requirement of the site.

DDP Comments. The DDP partially concurred and stated that licenses are
required only in the quantities requested by the DoD Components to support the
sites designated to receive a particular software release.

DCMA Comments. DCMA nonconcurred and stated that the PMO should not
validate that an SPS version will meet a site’s mission needs because this is a
DoD Component responsibility. DCMA considers the action to be complete.

Audit Response. The comments provided by the DDP and the DCMA were
not responsive. Although the DoD Components are responsible for identifying
quantities of licenses required, the audit clearly indicated that additional actions
are required because the DoD Components requested that the PMO purchase
unnecessary licenses. Therefore, the PMO should not purchase new licenses
until the DDP has assurance that licenses to be purchased are needed. This can
be accomplished by DDP implementing review procedures for Recommendation
B.2. and then validating the requirements. The minimal costs for review and
validation will outweigh future costs from acquiring unneeded licenses. We
request the DDP provide additional comments to the final report to address how
the DDP will provide the PMO with more accurate information on licensing
needs of DoD Components.




                                     36
Appendix A. Audit Process

Scope
    We developed a web-based survey instrument to assess user satisfaction with
    SPS. We then selected a statistical sample of sites from a list of sites provided
    by the PMO and then did a statistical sample of users at those sites. We
    reviewed JITC Operational Assessments conducted between March and
    July 2000. We met with personnel from the office of the DDP, the DCMA, the
    PMO, and the SPS Component Management Offices. We also attended SPS
    program management reviews.

    Limitation to Scope. We did not review the management control program
    related to the overall audit objective because the audit was in response to a
    congressional request.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance Results Act, the DoD
    annually establishes DoD corporate level goals, subordinate performance goals,
    and performance measures. This report pertains to achievement of the
    following corporate-level goals and subordinate performance goals:

    FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future
    by pursing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-2) FY 2001 Subordinate Performance
    Goal 2.3: Streamline the DoD infrastructure by redesigning the Department’s
    support structure and pursuing business practice reforms. (01-DoD-2.3)
    Subordinate Performance Goal 2.4: Meet combat forces’ needs smarter and
    faster, with products and services that work better and cost less, by improving
    the efficiency of DoD acquisition processes. (01-DoD-2.4) Subordinate
    Performance Goal 2.5: Improve DoD financial and information management.
    (01-DoD-2.5).

    DoD Functional Area Reform Goals. Most major DoD functional areas
    have also established performance improvement reform objectives and goals.
    This report pertains to achievement of the following functional area objectives
    and goals.

           • Acquisition Functional Area. Objective: Foster Partnerships.
             Goal: Decrease paper transactions by 50 percent through electronic
             commerce and electronic data interchange. (ACQ-2.3)

           • Information Management Technology. Objective: Reform
             information technology management processes to increase efficiency
             and mission contribution. Goal: Institute fundamental information
             technology management reform efforts. (ITM-3.2)



                                        37
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Management and Technology high-risk area.


Methodology
    Use of Computer-Processed Data. We relied on internally computer-processed
    data to collect and analyze responses to a web-based user satisfaction survey.
    The web-based survey was developed and administered in-house. Therefore,
    we considered the data to be reliable.

    Statistical Sampling Methodology. The Quantitative Methods Division, Office
    of the Assistant Inspector General for Auditing, DoD, developed a statistical
    sampling plan to obtain information about the perceptions of and experience
    with the SPS through a survey of its users. Quantitative Methods Division
    analysts designed a multistage stratified sample to provide this information.

                Target Population. The target population for the survey comprises
    DoD users of SPS version 4.1. SPS sites control access to SPS and maintain
    registries of their site’s users. The DoD Components do not maintain central
    registries of users. In the absence of such a central source, we collected lists of
    users from selected sites within DoD. To facilitate this collection and the
    associated analysis, we grouped sites into five strata: Army sites, Navy sites,
    Air Force sites, Defense Logistics Agency sites, and other Defense agencies
    sites. The number of sites per stratum varied, as shown in Table A-1.


                        Table A-1. Number of Sites Per Strata

                                                     Total          Sample
                         Stratum                      Sites          Sites

               Army                                   290            30
               Navy                                   182            28
               Air Force                               19            All
               Defense Logistics Agency                 9            All
               Other Defense Agencies                  34            All

                Total                                 534


                 Sample Design. The survey required the use of two different
    approaches for sampling users within the overall sampling design. Because the
    Army and Navy had large numbers of sites, we statistically selected 30 Army
    and 28 Navy sites and obtained lists of users from each of the sites. We then
    surveyed all the users for those sites with 20 or fewer reported SPS users, and
    statistically sampled 20 users from those sites with 21 or more users. Because
    there were relatively few sites in the Defense Logistics Agency and other
    Defense agencies, and relatively few operational Air Force sites, we obtained
    lists of users from each site within each of the three strata. We then drew


                                        38
separate simple random samples directly from the combined Air Force list of
users, the combined Defense Logistics Agency list of users, and the combined
other Defense agencies list of users.

We designed the sample plan for statistical selection of the SPS users across
DoD, and through e-mail requested that the selected users complete the
web-based survey questionnaire to collect their perceptions of SPS functionality
and user satisfaction with SPS version 4.1. We used two-stage sample plans for
both the Army and Navy, and simple random sample plans for Air Force,
Defense Logistics Agency, and other Defense agencies.

                   Army. We used a two-stage sample plan for the Army by
treating the sites as clusters. In the first stage, we randomly selected a sample
of 30 sites from the population of 290 Army sites. In the second stage, we
randomly selected a sample of 278 users from the population of 378 users at
30 selected sites. We received 205 responses out of 278 users surveyed. We
used the 205 responses from the 30 selected sites to represent those Army SPS
users who would have responded to a survey of all SPS users.

                    Navy. We also used a two-stage sampling plan for the Navy.
In the first stage, we randomly selected a sample of 28 sites from the population
of 182 Navy sites. In the second stage, we randomly selected a sample of
331 users from the population of 578 users at the selected sites. We received
217 responses out of 331 users surveyed. We used the 217 responses as the
overall sample size distributed from the 28 selected sites with users to represent
those Navy SPS users who would have responded to a survey of all SPS users.

                  Air Force. We used a simple random sample plan for the
Air Force. We randomly selected a sample of 101 users from the population of
748 users and received 68 responses. We used the responses in this stratum to
project the stratum’s contribution to the overall DoD responding user
perceptions of and experiences with SPS.

                  Defense Logistics Agency. We used a simple random sample
plan for the Defense Logistics Agency. We randomly selected a sample of
102 users from the population of 364 users and received 70 responses. We used
the responses in this stratum to project the stratum’s contribution to the overall
DoD responding user perceptions of and experiences with SPS.

                  Other Defense Agencies. We used a simple random sample
plan for other Defense agencies. We randomly selected a sample of 101 users
from the population of 527 users and received 81 responses. We used the
responses in the stratum to project that stratum’s contribution to the overall DoD
responding user perceptions of and experiences with SPS.

            Population Used for Analyses. Out of the 913 sample surveys
solicited, we received 641 responses, including 439 responses from users of SPS
version 4.1. These responses represented about 6,385 SPS version 4.1 users
and comprised the framework within which the analyses in Appendix B are
computed. The methodology used to construct this estimated number of users
who would have responded to the survey has been described in detail in
Appendix C.


                                    39
     Use of Technical Assistance. We used technical assistance during the audit.
     The Quantitative Methods Division, Office of the Assistant Inspector General
     for Auditing, DoD, provided a statistical sampling plan and analysis of the data
     gathered via the web-based survey. We met with technical experts at the
     Defense Information Systems Agency; Defense Manpower Data Center; and
     Information Systems Directorate, Office of the Director, Administration and
     Information Management, Office of the Inspector General, DoD, to discuss the
     development, administration, and analysis of a web-based survey.

     Audit Type, Dates and Standards. We performed this program audit from
     January through November 2000, in accordance with auditing standards issued
     by the Comptroller General of the United States, as implemented by the
     Inspector General, DoD.

     Contacts During the Audit. We visited or contacted individuals and
     organizations within DoD. Further details are available on request.


Prior Coverage

General Accounting Office
     General Accounting Office Report No. GAO/AIMD 98-40 (OSD Case
     No. 1509), “Financial Management, Seven DoD Initiatives That Affect the
     Contract Payment Process,” January 30, 1998


Inspector General, DoD
     Inspector General, DoD, Report No. 99-166, “Initial Implementation of the
     Standard Procurement System,” May 26, 1999

     Inspector General, DoD, Report No. 96-219, “Allegations to the Defense
     Hotline Concerning the Standard Procurement System,” September 5, 1996




                                        40
Appendix B. Statistical Projections
      We computed statistical projections of SPS version 4.1 users in percentages for
      30 selected responses to the 11 questions for each DoD group and aggregated
      the results throughout DoD. The individual projections for 30 responses were
      computed by using a 99.65 percent confidence level to have a 95 percent
      effective confidence level for the 30 projections when viewed simultaneously.
      We used the Bonferroni1 approach to compensate for the reduced level of
      significance for individual tests when conducting multiple tests.
      Nonrespondents at both the survey and the individual item level were treated as
      missing-at-random; that is, as though their answers were in the same
      proportions as those of the respondents. The survey responses for two of the
      sampled Navy sites were commingled. To complete the statistical calculations,
      we divided these responses equally between the two Navy sites.

      Two types of approximations were used nonstatistically in the confidence
      interval calculations. Because complete lists of users were not obtained for
      either Army or Navy, we approximated the numbers of users for these Military
      Departments. Also, because not everyone included on the user lists was a user
      of SPS version 4.1, we approximated the numbers of SPS version 4.1 users in
      the DoD Components (see Appendix C). Both of these approximations
      introduced additional uncertainty to the confidence interval calculations in ways
      that cannot be quantified. Therefore, the presented confidence intervals for the
      estimated response percentages are themselves approximate and understate the
      total uncertainty of the estimates. The estimated percentages should be used for
      decision making only if the presented confidence intervals are well within the
      uncertainty acceptable to the decision maker. The projected results for the
      estimated number of respondents are shown in Table B-1.




  1
      The Bonferroni procedure or correction is used when there are multiple statistical tests. When
                                         –                                                    –
      there are multiple independent tests different survey response categories in this instance the
      error risks accumulate.


                                                41
                  Table B-1. Statistical Projections

                                              Point     Lower      Upper
                                             Estimate   Bound      Bound
Use of SPS:
  Do not use SPS*                             26.5        6.1       46.9
SPS Functionality:
  All functions needed                        12.6        8.1       17.1
  Most of the functions needed                49.0       40.5       57.5
  Some/none of the functions needed           38.4       31.4       45.3
SPS Workarounds:
  More or a lot more                          45.8       36.3       55.2
  About the same                              16.3       11.1       21.4
  Less or lot less                            15.0       10.0       20.1
Amount Paperless:
  Completely/to some extent                   36.5       27.1       45.9
  To a small extent                           35.8       26.7       44.8
  Not at all                                  27.7       19.6       35.8
Installation Problems:
  No/few problems                             30.1       19.4       40.8
  Many problems                               69.9       59.2       80.6
Training Adequacy:
  Completely/to a large extent                35.4       25.6       45.2
  To a small extent                           54.9       45.8       64.0
  Not at all                                   9.7        5.0       14.4
Helpfulness of Guidance:
  Helpful/very helpful                        40.6       35.1       46.0
  Little/not helpful                          43.3       35.4       51.1
  No guidance                                 16.2        8.7       23.7
System Choice:
  SPS                                         39.2       27.9       50.6
  Legacy system                               31.5       23.3       39.7
  Other system                                29.3       15.6       43.0
Productivity:
  Increased                                   12.7        7.5       17.9
  About the same                              35.9       25.6       46.2
  Decreased                                   51.4       41.5       61.3
Adequacy of Help Resources:
  Completely or to a large extent adequate    45.3       34.7       55.8
  To a small extent adequate                  46.3       37.3       55.3
  Not adequate                                 8.4        4.5       12.3
Functional and Availability:
  Always                                      12.7        6.4       19.0
  Most of the time                            73.2       64.1       82.3
  Down more than up/never available           14.1        7.0       21.1

*The projections for non-SPS users are based on the estimated number of
 listed users (8,867 DoD-wide) against the projections for other questions
 based on SPS version 4.1 users, as explained in Appendix C.



                               42
The projected results can be interpreted in statistical terms and illustrated by
taking any projection from above. For example, to interpret the non-SPS users,
we are 95 percent confident that within the 30 listed projections, between
6.1 percent and 46.9 percent of the respondents are non-SPS users. The
unbiased point estimate of 26.5 percent of non-SPS users is the midpoint of the
statistically estimated range of stated values.

The results for non-SPS users show a large confidence interval for DoD-wide
estimates - 6.1 percent to 46.9 percent. This wide confidence interval
mathematically reflects the wide differences across the DoD Components, which
it summarizes. The lower bounds range from 2.5 percent to 72.6 percent. The
upper bounds range from 28.3 percent to 96.6 percent. In addition, the Navy
has a wide range of uncertainty - 5.6 percent to 60.9 percent. This also
contributes to the large DoD-wide confidence interval. By way of contrast, the
DoD Component intervals for functionality are much closer, with the lower
bounds from 18.8 percent to 33.1 percent and the upper bounds from
45.7 percent to 94.8 percent; therefore, the DoD-wide interval is much
narrower from 31.4 percent to 45.3 percent.




                                   43
Appendix C. Estimating the Number of
            Standard Procurement System
            Version 4.1 Users
   The goal of the SPS user survey was to collect information on user experience
   with, and perceptions of, SPS. We focused our analysis on current users of
   SPS version 4.1, including maintenance releases 4.1a, 4.1b, and 4.1c, referred
   to collectively as SPS version 4.1 users. To make such an estimate was a
   challenge. Because there was no central source for identifying SPS users, the
   population was operationally undefined. The PMO had a central list of sites
   with SPS version 4.1. However, neither the PMO nor DoD Components had
   lists or access to lists of users at the sites with SPS version 4.1. Because there
   were no available lists of SPS version 4.1 users, there was no direct way of
   sampling those users. The absence of the baseline information on our target
   population substantially influenced the sample design used in the survey, as well
   as our analysis and projections.

   Sample Design. The sample design involved two basic steps. The first was to
   identify sites for statistical sampling. We organized sites into five groups, or
   strata. The strata were Army sites, Navy sites, Air Force sites, Defense
   Logistics Agency sites, and collectively all other Defense agency sites.

   To collect user surveys from a representative number of sites per stratum, we
   used two different sampling methods. For the 3 strata with 40 sites or fewer
   (Air Force, Defense Logistics Agency and other Defense agencies), we
   requested lists of users from all sites in a stratum. For the strata with lists for
   all sites, we drew a simple random sample of users from the combined lists for
   each stratum. For the 2 strata with more than 40 sites, we drew samples of
   28 Navy and 30 Army sites, respectively. We used a two-stage methodology
   for them, sampling sites within each stratum and then statistically sampling
   users within the selected sites. Table C-1 summarizes the situation for each
   stratum.


                     Table C-1. Sampling Methods for Stratum

              Stratum              Total      Sample      User         Sampling
            (Component)            Sites       Sites     Census         Method

     Army                          290         30         No       Two Stage
     Navy                          182         28         No       Two Stage
     Air Force                      19         All        Yes      Simple Random
     Defense Logistics Agency        9         All        Yes      Simple Random
     Other Defense Agencies         34         All        Yes      Simple Random


   Measurement Issues. There were two main measurement issues in determining
   the number of SPS version 4.1 users throughout DoD: nonresponse to the
   survey by those sampled and the presence of nonuser names on the user lists.


                                         44
    There were two general types of nonusers. Persons selected from the lists for
    our sample could no longer be current license holders (because they were
    deceased, or no longer worked at the site from which the sample was drawn),
    or could be entered on the list more than once. As such, nonusers and duplicate
    entries were considered outside the scope of the survey. Across the 30 Army
    sample sites and 278 sample users, 2 persons were named twice on the Army
    list and 3 were identified as nonusers.1 Among the 331 Navy users sampled,
    there were 7 nonusers. Of the 101 Air Force listed users, 1 was a nonuser,
    as were 2 of the 102 sampled from Defense Logistics Agency, and 1 of the
    101 from other Defense agencies. With these few exceptions, the remaining
    persons in the sample were considered to be current licensed users of some
    version of SPS. These were the basis of the Listed User population
    we projected.

    The nonresponse issue had two aspects that influenced determining the number
    of SPS version 4.1 users. First, some of the sampled users who were sent a
    survey did not respond to the survey, despite followup requests. The marginal
    response rate was nevertheless fairly high–205 of 278 for the Army, 217 of 331
    for the Navy, 68 of 101 for the Air Force, 70 of 102 for Defense Logistics
    Agency, and 81 of 101 for the other Defense agencies.2 The proportion of
    nonrespondents varied somewhat from stratum to stratum from a low of about
    one-fifth to a high of about one-third. To calculate the number of Responding
    Users among all Listed Users, we have used the numbers of those who
    responded to the survey. Second, among those who did respond there are a
    number of persons who were using earlier versions of SPS. Since our aim was
    to survey users of SPS version 4.1, we projected both the number of
    Responding Users and the number of Responding Users who were SPS
    version 4.1 users.3 At each of these points, because they were estimates, we
    have calculated not only the point estimate, but also the confidence interval, or
    uncertainty, of the estimate.

    Calculating the Number of SPS 4.1 Version Users. In calculating the number
    of SPS version 4.1 users, we have made the assumption that those not
    responding did so in a missing-at-random fashion and would have the same


1
    Among Army and Navy sites, if a list of users totaled 20 or fewer, we surveyed all 20, and any
    duplicates or out-of-scope persons counted directly against that total. Some persons were from
    sites with more than 20 users, in which case we added the next user on that site’s list in random
    selection sequence. For Air Force, Defense Logistics Agency, and the other Defense agencies
    pool of users, when one of the first 100 was out of scope, we took the next available user in
    random number sequence. The objective in each instance was to survey 20, or 100 users,
    respectively.
2
    These are marginal totals and part of a weighted sample design. They are reported for
    information only and cannot be directly projected to the sample as a whole without proper
    statistical weights attached. The sample sizes reported include out-of-scope persons. They,
    therefore, reflect all the listed names obtained and statistically represent the exhaustive lists for
    Air Force, Defense Logistics Agency, and other Defense agencies, as well as the sites
    statistically selected for Army and Navy. The total samples are the common baseline for all
    three population projections.
3
    We identified respondents as SPS 4.1 users if they answered "Yes" to Question 5, "I am
    currently using the 4.1 series of the SPS" or responded to Question 7, "Which maintenance
    release of SPS are you currently using?" with a particular release (4.1.a, 4.1.b, or 4.1.c).



                                                 45
    proportion of SPS version 4.1 users as those who did respond.4 We then used
    the ratio of “Listed Users” to “Responding Users” within each stratum to inflate
    the number of SPS version 4.1 users to its extrapolated proportion of all “Listed
    Users.” At the first stage, the DoD-wide projections were based on a stratified
    sample design and have been calculated using a 99.65 percent confidence level,
    as explained in Appendix A. Table C-2 presents the DoD-level projections.


                              Table C-2. DoD Level Projections

                                                       Lower           Point          Upper
                                                       Bound          Estimate        Bound

         Listed Users                                   8,679          8,867           9,054
         Responding Users                               5,371          6,046           6,721
         SPS Version 4.1 Users Responding               3,828          4,362           4,897


    As Table C-2 above shows, the confidence interval associated with the estimated
    number of SPS version 4.1 users who responded was much greater than for the
    number of “Listed Users.” Furthermore, these confidence intervals were
    probably understated because they did not include the variance associated with
    using population estimates for the Army and Navy computations. The
    extrapolations reported below do not reflect the uncertainty in our direct
    estimate, nor do they include the underlying statistical uncertainty associated
    with using estimates of the population totals for the Army and Navy strata and
    other variable factors.

    Based on the statistical projections above, we have calculated an approximate
    number of SPS version 4.1 users out of all the “Listed Users.” In doing so, we
    have calculated stratum by stratum the ratio of “Listed Users” to “Responding
    Users” and applied that ratio to the projected number of SPS version 4.1 users.
    For example, the point estimate of the number of “Army Listed Users” was
    3,599; the point estimate of the number of “Army Responding Users” was
    2,558. This gave an Army adjustment ratio of 3,599/2,558, which we used to
    extrapolate from the Army SPS version 4.1 user point estimate of 2,037. Using
    the Listed/Responding ratio, we extrapolated from the 2,037 that there are
    2,866 SPS version 4.1 users among the 3,599 “Army Listed Users.” Table C-3
    sets out the intermediate, stratum level results, and the corresponding piece of
    our calculated extrapolation of the number of SPS 4.1 users throughout DoD.




4
    The concept of ‘missing-at-random’ assumption for missing data is further discussed in
    Appendix B.



                                              46
                              Table C-3. SPS Version 4.1 Users

                                                           SPS 4.1                  SPS 4.1
                                                           Version                  Version
                                        Listed Responding   Users                    Users
                  Stratum               Users    Users    Responding               DoD-Wide

      Army                     3,599                 2,558           2,037            2,866
      Navy                     3,649                 2,312           1,585            2,502
      Air Force                  741                   504             385              566
      Defense Logistics Agency   357                   250              68               97
      Other Defense Agencies     522                   423             287              354


    Using the extrapolations reported in Table C-3, the total number of SPS
    version 4.1 DoD-wide users was 6,385.5 We have not computed a confidence
    interval for this total because the absence of a well-defined user population has
    required a number of assumptions and approximations in calculating the 6,385.
    When reading the answer percents in Appendix B, the reader should keep in
    mind that the population figure of 6,385 is an approximation with a substantial
    unquantified uncertainty associated with it.




5
    The total number of SPS 4.1 users throughout DoD is based on the sum of the stratum totals and
    is not based on the ratio of the total Listed Users to the total Responding Users. The design is
    stratified and its totals must be calculated by summing the strata to take into account the
    different proportions of SPS 4.1 users among those responding in each sample.



                                              47
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
Under Secretary of Defense (Acquisition, Technology and Logistics)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense (Deputy Chief Information Officer)
Director, Defense Procurement

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Deputy Assistant Secretary of the Air Force (Contracting)

Other Defense Organizations
Defense Contract Management Agency
Defense Finance and Accounting Service
Defense Information Systems Agency
Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                         48
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Budget
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         49
Director, Defense Procurement
Comments




                   51
